Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   Medicare Payments for Services
        After Date of Death




                   JUNE GIBBS BROWN
                    Inspector General

                       MARCH 2000
                      OEI-03-99-00200
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

David Graf, Project Leader                           Stuart Wright, Program Specialist
Tara Schmerling, Program Analyst                     Brian Ritchie, Technical Support Staff




 To obtain copies of this report, please call the Philadelphia Regional Office at 1-800-531-9562.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                       EXECUTIVE SUMMARY


PURPOSE
        To determine if Medicare is paying claims with service dates after a beneficiary’s death.

BACKGROUND

        The Health Care Financing Administration (HCFA), which administers the Medicare
        program, contracts with fiscal intermediaries and carriers to process claims. In 1991,
        HCFA established the Common Working File (CWF) to improve claims processing in the
        Medicare program.

        Under the CWF system, intermediaries and carriers send the claim information to one of
        nine CWF host sites for approval. These host sites are designated intermediaries and
        carriers responsible for maintaining the claims data received from other contractors. At
        the host sites, checks are performed on the claim for consistency, entitlement, and
        duplication of services.

        The CWF host sites receive updated beneficiary information, including date of death, from
        HCFA’s Enrollment Database on a daily basis. The data contained in the Enrollment
        Database is received daily from the Social Security Administration and the Railroad
        Retirement Board. In addition to receiving date of death information from the Enrollment
        Database, the CWF receives some date of death information directly from institutional
        claims submitted by intermediaries.

        For this inspection, we analyzed HCFA’s Enrollment Database and a 1 percent sample of
        National Claims History data to identify services that started after a beneficiary’s date of
        death. We also surveyed selected intermediaries and carriers asking about their
        procedures for identifying and recovering payments made for deceased beneficiaries.

FINDINGS

Medicare paid $20.6 million in 1997 for services that started after a beneficiary’s
date of death

        Medicare paid an estimated $20.6 million in 1997 for services where the beneficiary’s date
        of death preceded the start date of the service. Medicare had not yet received date of
        death information at the time the claim was processed for $12.6 million (of $20.6 million)


   Medicare Payments for Services After Date of Death   1                                OEI-03-99-00200
        of the services paid. Most of these claims (75 percent) were processed within 45 days of
        the beneficiary’s date of death.

        Medicare paid $8 million (of $20.6 million) for services where the beneficiary’s date of
        death was posted in its system at the time the claim was processed. Over half ($4.8
        million) was for durable medical equipment (DME) claims. We also found some payments
        for Part A and Part B services where the Enrollment Database and CWF files contained
        different dates of death.

Medicare does not have uniform post-payment procedures to identify and recover
payments for deceased beneficiaries

        Of the 15 contractors we surveyed, only 2 had post-payment procedures in place to
        identify payments for deceased beneficiaries. Four other contractors are in the process of
        developing review procedures.

RECOMMENDATIONS

One piece of information that the Common Working File (CWF) uses when processing a claim is
a beneficiary’s date of death. We found that proper payment of a claim depends on (1) the receipt
of date of death information before the claim is processed or (2) accurate system edits based on
date of death information already in the CWF system. In either case, we believe that payments
should not be made for services starting after a beneficiary’s date of death. Therefore we
recommend:

The HCFA should require Medicare contractors to conduct annual post-payment
reviews to identify and recover payments for services after death

        Our findings show that HCFA made substantial payments for services where the
        beneficiary’s date of death was not yet posted at the CWF at the time the claim was
        processed and approved for payment. Because claims like these cannot be denied prior to
        payment (since the date of death is not in the CWF system), we recommend that HCFA
        require their contractors to conduct annual post-payment reviews to identify and recover
        these payments.

        We also found that contractors’ internal claims processing systems may be missing a
        significant amount of beneficiary date of death information. Therefore, HCFA should
        coordinate with their contractors to ensure they have the most up-to-date beneficiary date
        of death information before performing their post-payment reviews.




   Medicare Payments for Services After Date of Death   2                              OEI-03-99-00200
The HCFA should revise their CWF system edit to ensure that DME payments are
not made for deceased beneficiaries

        We found particular problems relating to DME payments for deceased beneficiaries when
        the CWF had date of death information at the time the claim was processed and approved
        for payment. We recommend that HCFA revise their current CWF edit to deny all DME
        claims where the start dates of service occur after a beneficiary’s death. We believe that
        $4.8 million in 1997 payments for deceased beneficiaries would have been avoided had
        such an edit existed. In addition, we believe that HCFA policy should require that start
        and ending dates for DME services accurately reflect the service period.

The HCFA should periodically reconcile date of death information between the
Enrollment Database and CWF files

        We found that for some beneficiaries, discrepancies existed between the dates of death
        posted on the Enrollment Database and the dates of death posted at the CWF. Inaccurate
        date of death information can cause claims to be paid incorrectly and can also affect the
        accuracy of post-payment reviews. Therefore, we recommend that HCFA periodically
        reconcile the date of death information to ensure that accurate dates of death are
        contained in both files.


AGENCY COMMENTS

        The HCFA concurred with our recommendations. In April 1999, HCFA completed their
        own program vulnerability analysis of this issue and developed an action plan to address
        the issues identified in their report. To specifically address our recommendations, HCFA
        stated that they would (1) fund pilot projects for a subset of Medicare contractors to
        identify and investigate improper payments for deceased beneficiaries, (2) require all
        contractors to perform post-payment reviews as part of their FY 2001 Budget
        Performance Requirements, (3) establish the system changes necessary to revise their
        Common Working File edit, and (4) work to reconcile date of death information while
        controlling contractors’ workloads. The full text of HCFA’s comments can be found in
        Appendix B.




   Medicare Payments for Services After Date of Death   3                             OEI-03-99-00200
                            TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Payments After Death . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Identification and Recovery of Payments After Death . . . . . . . . . . . . . . . . . . . . . . . . . . 11


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDICES


          A: Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          B. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17





     Medicare Payments for Services After Date of Death             4                                                   OEI-03-99-00200
                                    INTRODUCTION


PURPOSE

        The purpose of this inspection is to determine if Medicare is paying claims with service
        dates after a beneficiary’s death.

BACKGROUND

        The Health Care Financing Administration (HCFA), which administers the Medicare
        program, contracts with companies called fiscal intermediaries and carriers to process
        claims. Fiscal intermediaries reimburse institutional inpatient services under Medicare Part
        A and outpatient claims under Part B. The types of institutional providers submitting
        claims to intermediaries include hospitals, skilled nursing facilities, and home health
        agencies. Carriers reimburse all other Part B claims including claims for services provided
        by physicians and medical suppliers. Four carriers called durable medical equipment
        regional carriers (DMERCs) process claims for durable medical equipment, prosthetics,
        orthotics, and supplies.

Claims Processing

        In 1991, HCFA established the Common Working File (CWF) to improve claims
        processing in the Medicare program. Under the CWF system, intermediaries and carriers
        no longer contact HCFA directly to verify information such as beneficiary entitlement and
        benefit status before paying a claim. Instead, they send the claim information to one of
        nine CWF host sites. The CWF host sites are designated intermediaries and carriers
        responsible for maintaining the claims data received from other contractors.

        Before sending a claim to the CWF host sites, intermediaries and carriers enter the claim
        into their processing system, perform consistency and utilization edits on the claim, and
        calculate a payment amount. Then they send the claim to one of the host sites. At the
        host sites, checks are performed on the claim for consistency, entitlement, and duplication
        of services. Once the host sites perform these edits, they authorize the intermediary or
        carrier to pay the claim, reject the claim, or hold the claim until more information is
        obtained.

Date of Death Information

        The CWF host sites receive updated beneficiary information, including date of death, from
        HCFA’s Enrollment Database on a daily basis. The Enrollment Database contains

   Medicare Payments for Services After Date of Death   5                              OEI-03-99-00200
        information for each beneficiary ever enrolled in Medicare including personal identifiers
        such as name and social security number, demographic data such as date of birth and date
        of death, and entitlement information including start and termination dates. The data
        contained in the Enrollment Database is received daily from the Social Security
        Administration’s (SSA) Master Beneficiary Record which contains demographic and
        entitlement data on all Medicare beneficiaries. The SSA can be notified of a beneficiary’s
        death in a number of ways including reports from relatives, funeral homes, or the postal
        service.

        In addition to receiving date of death information from the Enrollment Database, the CWF
        receives some date of death information directly from institutional claims submitted by
        intermediaries. On these claims, the ending date of service indicates the date of the
        beneficiary’s death.

Program Vulnerability

        In April 1999, HCFA issued a draft report which identified payments for deceased
        beneficiaries as a program vulnerability. According to HCFA, this vulnerability stems
        from the late posting of a beneficiary’s date of death to the SSA and the subsequent
        posting of this information to the CWF. The HCFA has notified their contractors of this
        vulnerability and at their 1999 benefit integrity training sessions suggested that contractors
        perform data analysis to identify billings for deceased beneficiaries.


METHODOLOGY

        This inspection focused on the receipt of data at the CWF level to determine if Medicare
        paid claims for services after a beneficiary’s date of death. We did not evaluate whether
        or not the SSA received beneficiary date of death information in a timely manner.

        Claims Data

        We gathered all 1997 claims for a 1 percent sample of Medicare beneficiaries using
        HCFA’s National Claims History file. To identify services that started after a beneficiary’s
        date of death, we first developed a list of unique beneficiary identification numbers in the
        sample. We then matched those numbers against HCFA’s Enrollment Database, checking
        for beneficiaries who had died prior to January 1, 1998. We then extracted from the 1
        percent sample all claims associated with these deceased beneficiaries. We calculated the
        number of services and dollars paid where the start date of service was after the date of
        death. We used the amount that Medicare reimbursed, which does not include beneficiary
        co-payments or deductibles, to calculate dollars paid.




   Medicare Payments for Services After Date of Death   6                                OEI-03-99-00200
     For the purposes of this report, when we refer to Part A services, we are referring to both
     Part A inpatient services as well as Part B outpatient services handled by fiscal
     intermediaries. When we refer to Part B services, we are referring to Part B services
     handled by carriers. When we refer to durable medical equipment (DME) services, we are
     referring to the durable medical equipment, prosthetics, orthotics, and supplies handled by
     the DMERCs.

     Variables used in analysis. To determine if the CWF had a beneficiary’s date of death at
     the time the claim was processed, we used information from the Enrollment Database and
     National Claims History files. To determine when the CWF received the beneficiary’s
     date of death, we used the Enrollment Database variable “SSA RRB Action Processing
     Date” (Last Action Date). This variable is defined as the date of the last Social Security
     Administration’s Master Beneficiary Record (MBR) or Railroad Retirement Board
     change.

     To determine when Medicare processed the claim, we used the National Claims History
     variable “CWF Accretion Date” (Processing Date). This variable is defined as the date the
     institutional or Part B claim is accreted (posted/processed) to the MBR at the CWF host
     site and authorization for payment is returned to the fiscal intermediary or carrier.

     The HCFA informed us that the Enrollment Database ledger account file (LAF) codes may
     be more indicative than the Last Action Date in determining when a beneficiary’s date of
     death is recorded at the Enrollment Database. However, we compared the Last Action
     Date to the LAF code defined as the “beneficiary payment status change date” (LAF date).
     Our analysis showed that the LAF date was either the same or prior to the Last Action
     Date. To be conservative in determining when Medicare had the beneficiary’s date of
     death, we used the Last Action Date in our analysis.

     Comparing Last Action Date to Processing Date. We compared the Last Action Date
     to the Processing Date. Usually it takes one day for the date of death information to go
     from the SSA to the Enrollment Database and another day to go from the Enrollment
     Database to the CWF. We added three days to the Last Action Date to allow for the
     maximum time it would take for the date of death data to get from the SSA to the CWF.

     If the Processing Date was before the Last Action Date (plus 3 days), we determined that
     the CWF host site processed the claim before the date of death was in the system. If the
     Processing Date was after the Last Action Date (plus 3 days), we determined that the
     CWF host site processed the claim after the date of death was in the system.

     We performed further analysis on beneficiaries with Part A and Part B services where it
     appeared that the claim was processed after the date of death was posted at the CWF. In
     order to check these dates of death, we reviewed the CWF’s Health Insurance Master
     Record file. Our analysis showed that, for a few services, the date of death had not made


Medicare Payments for Services After Date of Death   7                             OEI-03-99-00200
     it from the Enrollment Database to the CWF. For these beneficiaries, there was no date of
     death present on the CWF’s Health Insurance Master Record file. Therefore, in our
     calculations we grouped the services for these beneficiaries with the services where the
     CWF processed the claim before the date of death was in the system.

     Percentage estimates and corresponding 95 percent confidence intervals for our data were
     computed using standard statistical formulas for a simple random sample. Point estimates
     and confidence intervals for all statistics presented in this report are in Appendix A.

     Survey Data

     We mailed questionnaires to 15 contractors asking about their post-payment procedures
     for identifying and recovering payments made for deceased beneficiaries. We selected the
     top contractors based on their 1997 payments for deceased beneficiaries. Whether or not
     contractors had post-payment procedures in place in 1997 is independent of the amount of
     their 1997 payments for deceased beneficiaries. Our sample included five fiscal
     intermediaries, six carriers, and all four DMERCs.

                                                 _____________

     This inspection was conducted in accordance with the Quality Standards for Inspections
     issued by the President’s Council on Integrity and Efficiency.




Medicare Payments for Services After Date of Death     8                          OEI-03-99-00200
                                              FINDINGS

Medicare paid $20.6 million in 1997 for services that started
after a beneficiary’s date of death
        Medicare paid an estimated $20.6 million in 1997 where the beneficiary’s date of death
        preceded the start date of the service. The $20.6 million represents $9.2 million in durable
        medical equipment (DME) claims, $10 million in Part A claims, and $1.4 million in Part B
        claims.

        For some of these services, our analysis revealed that the CWF had not yet received the
        beneficiary’s date of death at the time the claim was processed. However in other cases,
        the CWF had the beneficiary’s date of death in its system when the claim was processed
        and approved for payment.

Medicare had not yet received beneficiary’s date of death for over half the
payments

        Medicare paid $12.6 million (of $20.6 million) for services where the beneficiary’s date
        of death was not yet posted at the CWF at the time the claim was processed. This $12.6
        million consisted of $4.5 million in DME claims, $6.9 million in Part A claims, and $1.2
        million in Part B claims. Most of these claims (75 percent) were processed within 45 days
        of the beneficiary’s date of death.

Medicare had received beneficiary’s date of death for almost half the payments

        Medicare paid $8 million (of $20.6 million) for services where the beneficiary’s date of
        death was posted in the CWF at the time the claim was processed and approved for
        payment. Over half ($4.8 million) was for DME claims. The rest of the payments
        involved different dates of death in the Enrollment Database and CWF files.

        Payments for DME services after beneficiary’s date of death

        We found that Medicare paid $4.8 million for DME services even though the CWF
        contained the beneficiary’s date of death at the time the claim was approved for payment.
        Rental services accounted for $3.5 million of the $4.8 million in DME services. The
        remaining payments consisted of non-rental DME services such as lump sum payments for
        DME, orthotics, and prosthetics and enteral nutrients. The start and ending dates for
        these DME services occurred within 30 days of a beneficiary’s date of death.



   Medicare Payments for Services After Date of Death   9                              OEI-03-99-00200
     We are aware that the CWF has an edit that allows for the payment of DME rental claims
     up to 30 days after a beneficiary’s date of death. This edit takes the beneficiary’s date of
     death, adds 30 days, and compares this date with the service ending date to determine if
     the claim should be paid. If the service ending date is before the beneficiary’s date of
     death (plus 30 days) then the CWF allows the claim. If the service ending date is after the
     beneficiary’s date of death (plus 30 days) then the CWF denies the claim.

     It is our understanding that this edit was designed to allow for a full month’s rental
     payment if the beneficiary dies within the rental period. For example, if the rental period
     for a DME service is March 1st (i.e., start date) thru March 31st (i.e., ending date) and the
     beneficiary dies on March 15th, the rental service for the month of March would be
     properly allowed since March 31st (i.e., service ending date) is before April 15th (i.e., date
     of death plus 30 days) and the beneficiary died within the rental period. Additionally, a
     claim for the next rental period (April 1st -April 30th ) would be properly denied.

     However, all the rental claims that we identified had the same start and ending dates of
     service; therefore Medicare’s payment of these claims was actually for the rental period
     following a beneficiary’s death. For example, if the start and ending dates of service for
     an April rental period are April 1st and the beneficiary dies on March 15th, the CWF would
     improperly allow the claim for the month of April. In this case, the edit says to allow the
     claim since April 1st (service ending date) is before April 15th (date of death plus 30 days).


     We also found similar payments made for DME claims that were not rental services. For
     these claims, the start date of service was after the beneficiary’s date of death and the
     service ending date was within 30 days of the beneficiary’s death. It appears that the
     CWF edit was applied not only to rental services but also non-rental services.

     Some Part A and Part B services had different dates of death in the Enrollment
     Database and CWF files

     We found some Part A and Part B services where the Enrollment Database and CWF files
     contained different dates of death. As previously mentioned, the CWF can receive date of
     death information from both the Enrollment Database and from Part A claims. For the
     services we identified, the CWF file reflected the dates of death contained on a Part A
     claim which was different from the dates of death posted on the Enrollment Database. We
     found no indication of which file contained the accurate date of death.




Medicare Payments for Services After Date of Death   10                                OEI-03-99-00200
Medicare does not have uniform procedures to identify and
recover payments for deceased beneficiaries
       Of the 15 contractors we surveyed, only two durable medical equipment regional carriers
       (DMERCs) had post-payment procedures in place to identify and recover payments made
       for deceased beneficiaries. These two DMERCs identified approximately $1.2 million
       over a 2-year period for services paid after a beneficiary’s date of death. In contrast, we
       estimate that these same DMERCs paid $4.9 million in payments for deceased
       beneficiaries in 1997 alone. Four other contractors (three carriers and one intermediary)
       are in the process of developing post-payment procedures.

       Three contractors specifically stated that they obtain (or will obtain) their beneficiary date
       of death information from their own internal claims processing system. It is our
       understanding that contractors generally receive updated beneficiary information,
       including date of death, from the CWF when a claim is returned to the contractors.

       If a contractor submits a claim for a deceased beneficiary before the CWF has the
       beneficiary’s date of death in its system, this claim will be approved for payment (barring
       any other problems with the claim). Moreover, once the CWF is notified of the
       beneficiary’s date of death, the contractor’s internal system is only updated if the
       contractor sends another claim to the CWF. Therefore, it is possible that the contractors’
       systems may never be updated with this beneficiary date of death information. In turn,
       when the contractors perform their post-payment reviews looking for payments made for
       deceased beneficiaries, they may miss a significant number of payments because the
       beneficiary’s date of death was never posted to their own internal claims processing
       system.




  Medicare Payments for Services After Date of Death   11                                OEI-03-99-00200
                           RECOMMENDATIONS

One piece of information that the Common Working File (CWF) uses when processing a claim is
a beneficiary’s date of death. We found that proper payment of a claim depends on (1) the receipt
of date of death information before the claim is processed or (2) accurate system edits based on
date of death information already in the CWF system. In either case, we believe that payments
should not be made for services starting after a beneficiary’s date of death. Therefore we
recommend:


The HCFA should require Medicare contractors to conduct annual
post-payment reviews to identify and recover payments for services
after death

        Our findings show that HCFA made substantial payments for services where the
        beneficiary’s date of death was not yet posted at the CWF at the time the claim was
        processed and approved for payment. Because claims like these cannot be denied prior to
        payment (since the date of death is not in the CWF system), we recommend that HCFA
        require their contractors to conduct annual post-payment reviews to identify and recover
        these payments.

        We also found that contractors’ internal claims processing systems may be missing a
        significant amount of beneficiary date of death information. Therefore, HCFA should
        coordinate with their contractors to ensure they have the most up-to-date beneficiary date
        of death information before performing their post-payment reviews.


The HCFA should revise their CWF system edit to ensure that DME
payments are not made for deceased beneficiaries

        We found particular problems relating to DME payments for deceased beneficiaries when
        the CWF had date of death information at the time the claim was processed and approved
        for payment. We recommend that HCFA revise their current CWF edit to deny all DME
        claims where the start dates of service occur after a beneficiary’s death. We believe that
        $4.8 million in 1997 payments for deceased beneficiaries would have been avoided had
        such an edit existed. In addition, we believe that HCFA policy should require that start
        and ending dates for DME services accurately reflect the service period.




   Medicare Payments for Services After Date of Death   12                            OEI-03-99-00200
The HCFA should periodically reconcile date of death information
between the Enrollment Database and CWF files

       We found that for some beneficiaries, discrepancies existed between the dates of death
       posted on the Enrollment Database and the dates of death posted at the CWF. Inaccurate
       date of death information can cause claims to be paid incorrectly and can also affect the
       accuracy of post-payment reviews. Therefore, we recommend that HCFA periodically
       reconcile the date of death information to ensure that accurate dates of death are
       contained in both files.


AGENCY COMMENTS

       The HCFA concurred with our recommendations. In April 1999, HCFA completed their
       own program vulnerability analysis of this issue and developed an action plan to address
       the issues identified in their report. To specifically address our recommendations, HCFA
       stated that they would (1) fund pilot projects for a subset of Medicare contractors to
       identify and investigate improper payments for deceased beneficiaries, (2) require all
       contractors to perform post-payment reviews as part of their FY 2001 Budget
       Performance Requirements, (3) establish the system changes necessary to revise their
       Common Working File edit, and (4) work to reconcile date of death information while
       controlling contractors’ workloads. The full text of HCFA’s comments can be found in
       Appendix B.




  Medicare Payments for Services After Date of Death   13                           OEI-03-99-00200
                                                                            APPENDIX A


                         Estimates and Confidence Intervals


The tables below contain statistical estimates presented in the findings section of this report.
Point estimates and corresponding 95 percent confidence intervals based on a 1 percent sample of
HCFA’s National Claims History file were computed using standard statistical formulas for a
simple random sample.


Table 1. 1997 Medicare Payments for Services After Date of Death

     Type of Service                                Point Estimate     95% Confidence Interval

     DME                                                $9,243,771     $8,300,536 - $10,187,007

     Part A                                             $9,957,253     $3,367,049 - $16,547,457

     Part B                                             $1,434,529     $1,237,944 - $1,631,114

     Total                                              $20,635,553   $13,482,383 - $27,788,723



Table 2. 	1997 Payments Where Medicare Did Not Have Beneficiary’s Date of Death
          When Claim was Processed

     Type of Service                                Point Estimate     95% Confidence Interval

     DME                                                $4,480,453     $3,786,867 - $5,174,038

     Part A                                             $6,877,164     $3,162,325 - $10,592,003

     Part B                                             $1,215,769     $1,031,598 - $1,399,940

     Total                                              $12,573,386    $8,353,906 - $16,792,866




   Medicare Payments for Services After Date of Death        14                          OEI-03-99-00200
                                                                             APPENDIX A



Table 3. 	Percentage of Claims Processed Within 45 Days of the Beneficiary’s Date of Death
          When Date of Death Was Not in CWF System at the Time Claim was Processed

                                                    Point Estimate       95% Confidence Interval

   Percentage of Claims Processed
   within 45 Days of the                                  74.82%           71.24% - 78.40%
   Beneficiary’s Date of Death




Table 4. 	1997 Total Payments Where Medicare Had Beneficiary’s Date of Death When
          Claim was Processed

                                                    Point Estimate       95% Confidence Interval

   Total Payments Where
   Medicare Had Beneficiary’s                           $8,062,167 *    $2,284,074 - $13,840,260
   Date of Death

* In the findings of this report, we used $8 million as the estimate.




Table 5. 1997 DME Payments Where Medicare Had Beneficiary’s Date of Death When
          Claim Was Processed

     Type of Service                                Point Estimate       95% Confidence Interval


     DME Total                                          $4,763,318      $4,126,468 - $5,400,169


     DME Rental                                         $3,506,073      $3,113,665 - $3,898,481




   Medicare Payments for Services After Date of Death       15                            OEI-03-99-00200
                                                                          APPENDIX A



Table 6. Two DMERCs’ 1997 Payments for Services After Date of Death

                                                    Point Estimate    95% Confidence Interval

     Two DMERCs’ 1997
     Payments for Services                              $4,940,063   $4,459,786 - $5,420,340
     After Date of Death




   Medicare Payments for Services After Date of Death      16                          OEI-03-99-00200
                                                          APPENDIX B



Comments From the Health Care Financing Administration





Medicare Payments for Services After Date of Death   17         OEI-03-99-00200
                                                          APPENDIX B




Medicare Payments for Services After Date of Death   18         OEI-03-99-00200
                                                          APPENDIX B




Medicare Payments for Services After Date of Death   19         OEI-03-99-00200
                                                          APPENDIX B




Medicare Payments for Services After Date of Death   20         OEI-03-99-00200
                                                          APPENDIX B




Medicare Payments for Services After Date of Death   21         OEI-03-99-00200
